                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS



                                   Final Audit Report

Subject:




               AUDIT OF INFORMATION SYSTEMS
            GENERAL AND APPLICATION CONTROLS AT
             BLUECROSS BLUESHIELD OF TENNESSEE


                                            Report No. 1A-10-15-13-002

                                            Date:                 August 6,2013




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report



              FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                            CONTRACT 1039
                          BLUECROSS BLUESHIELD OF TENNESSEE
                                                 PLAN CODES 10 / 11
                                       CHATTANOOGA, TENNESSEE




                                            Report No. 1A-10-15-13-002
                                                               August 6,2013
                                            Date:




                                                                                             ________________________
                                                                                             Michael R. Esser
                                                                                             Assistant Inspector General
                                                                                               for Audits


                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary



          FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM
                        CONTRACT 1039
                   BLUECROSS BLUESHIELD OF TENNESSEE
                                    PLAN CODES 10 / 11
                            CHATTANOOGA, TENNESSEE




                               Report No. 1A-10-15-13-002

                               Date:          August 6, 2013


This final report discusses the results of our audit of general and application controls over the
information systems at BlueCross BlueShield of Tennessee (BCBST.)

Our audit focused on the claims processing applications used to adjudicate Federal Employees
Health Benefits Program (FEHBP) claims for BCBST, as well as the various processes and
information technology (IT) systems used to support these applications. We documented
controls in place and opportunities for improvement in each of the areas below.

Security Management
BCBST has established a series of IT policies and procedures to create an awareness of IT
security. We also verified that BCBST has adequate human resources policies related to the
security aspects of hiring, training, transferring, and terminating employees.

Access Controls
BCBST has implemented numerous controls to grant, remove, and control physical access to its
data center, as well as logical controls to protect sensitive information. We also noted various
controls over physical access to the facilities, as well as the method for encrypting emails
containing sensitive information.



                                                  i
Network Security
BCBST has documented network infrastructure diagrams, implemented a secure firewall
architecture, maintains comprehensive incident response policies and procedures and utilizes
software packages for incident correlation. However, BCBST’s controls to detect rogue devices
connected to its network could be improved.

Configuration Management
BCBST has developed formal policies and procedures that provide guidance for system software
management and controlling configuration changes. However, we noted several weaknesses in
BCBST’s configuration management program related to system configuration auditing and its
vulnerability scanning methodology.

Contingency Planning
We reviewed BCBST’s business continuity plans and concluded that they contained the key
elements suggested by relevant guidance and publications. We also determined that these
documents are reviewed and updated on a periodic basis.

Claims Adjudication
BCBST has implemented many controls in its claims adjudication process to ensure that FEHBP
claims are processed accurately. We also determined that BCBST has adequate policies and
procedures related to application change control.

Health Insurance Portability and Accountability Act (HIPAA)
Nothing came to our attention that caused us to believe that BCBST is not in compliance with
the HIPAA security, privacy, and national provider identifier regulations.




                                               ii
                                                                   Contents
                                                                                                                                                Page
Executive Summary ............................................................................................................................ i
 I. Introduction ................................................................................................................................... 1
    Background ................................................................................................................................... 1
    Objectives ...................................................................................................................................... 1
    Scope ............................................................................................................................................. 2
    Methodology ................................................................................................................................. 2
    Compliance with Laws and Regulations ....................................................................................... 3
II. Audit Findings and Recommendations ......................................................................................... 4
    A. Security Management ............................................................................................................... 4
    B. Access Controls ........................................................................................................................ 4
    C. Network Security ...................................................................................................................... 4
    D. Configuration Management ...................................................................................................... 6
    E. Contingency Planning ............................................................................................................. 10
    F. Claims Adjudication ............................................................................................................... 11
    G. Health Insurance Portability and Accountability Act ............................................................. 12
III. Major Contributors to This Report ............................................................................................ 13

Appendix: BlueCross BlueShield of Tennessee’s March 11, 2013 response to the draft audit report
          issued January 10, 2013.
                                       I. Introduction
This final report details the findings, conclusions, and recommendations resulting from the audit
of general and application controls over the information systems responsible for processing
Federal Employees Health Benefits Program (FEHBP) claims by BlueCross BlueShield of
Tennessee (BCBST).

The audit was conducted pursuant to FEHBP Contract CS 1039; 5 U.S.C. Chapter 89; and 5
Code of Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the U.S.
Office of Personnel Management’s (OPM) Office of the Inspector General (OIG), as established
by the Inspector General Act of 1978, as amended.

Background
The FEHBP was established by the Federal Employees Health Benefits Act (the Act), enacted on
September 28, 1959. The FEHBP was created to provide health insurance benefits for federal
employees, annuitants, and qualified dependents. The provisions of the Act are implemented by
OPM through regulations codified in Title 5, Chapter 1, Part 890 of the CFR. Health insurance
coverage is made available through contracts with various carriers that provide service benefits,
indemnity benefits, or comprehensive medical services.

This was our first audit of BCBST’s general and application controls. We also reviewed
BCBST’s compliance with the Health Insurance Portability and Accountability Act (HIPAA).

All BCBST personnel that worked with the auditors were helpful and open to ideas and
suggestions. They viewed the audit as an opportunity to examine practices and to make changes
or improvements as necessary. Their positive attitude and helpfulness throughout the audit was
greatly appreciated.

Objectives
The objectives of this audit were to evaluate controls over the confidentiality, integrity, and
availability of FEHBP data processed and maintained in BCBST’s IT environment.
We accomplished these objectives by reviewing the following areas:
 •   Security management;
 •   Access controls;
 •   Network security;
 •   Configuration management;
 •   Segregation of duties;
 •   Contingency planning;
 •   Application controls specific to BCBST’s claims adjudication systems; and,
 •   HIPAA compliance.




                                                  1
Scope
This performance audit was conducted in accordance with generally accepted government
auditing standards issued by the Comptroller General of the United States. Accordingly, we
obtained an understanding of BCBST’s internal controls through interviews and observations, as
well as inspection of various documents, including information technology and other related
organizational policies and procedures. This understanding of BCBST’s internal controls was
used in planning the audit by determining the extent of compliance testing and other auditing
procedures necessary to verify that the internal controls were properly designed, placed in
operation, and effective.

The scope of this audit centered on the information systems used by BCBST to process medical
insurance claims for FEHBP members, with a primary focus on the claims adjudication
applications. The business processes reviewed are primarily located in BCBST’s Chattanooga,
Tennessee facilities.

The on-site portion of this audit was performed in October and November of 2012. We
completed additional audit work before and after the on-site visit at our office in Washington,
D.C. The findings, recommendations, and conclusions outlined in this report are based on the
status of information system general and application controls in place at BCBST as of November
2012.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
BCBST. Due to time constraints, we did not verify the reliability of the data used to complete
some of our audit steps but we determined that it was adequate to achieve our audit objectives.
However, when our objective was to assess computer-generated data, we completed audit steps
necessary to obtain evidence that the data was valid and reliable.

Methodology
In conducting this review we:
•   Gathered documentation and conducted interviews;
•   Reviewed BCBST’s business structure and environment;
•   Performed a risk assessment of BCBST’s information systems environment and applications,
    and prepared an audit program based on the assessment and the Government Accountability
    Office’s (GAO) Federal Information System Controls Audit Manual (FISCAM); and,
•   Conducted various compliance tests to determine the extent to which established controls and
    procedures are functioning as intended. As appropriate, we used judgmental sampling in
    completing our compliance testing. Results of samples that are judgmentally selected cannot
    be projected to the population since it is unlikely that the results are representative of the
    population as a whole.

Various laws, regulations, and industry standards were used as a guide to evaluating BCBST’s
control structure. These criteria include, but are not limited to, the following publications:




                                                2
•   Office of Management and Budget (OMB) Circular A-130, Appendix III;
•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   Information Technology Governance Institute’s CobiT: Control Objectives for Information
    and Related Technology;
•   GAO’s FISCAM;
•   National Institute of Standards and Technology’s Special Publication (NIST SP) 800-12,
    Introduction to Computer Security;
•   NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
    Technology Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems and Organizations;
•   NIST SP 800-61, Computer Security Incident Handling Guide;
•   NIST SP 800-66 Revision 1, An Introductory Resource Guide for Implementing the HIPAA
    Security Rule; and,
•   HIPAA Act of 1996.

Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether BCBST’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
BCBST was not in complete compliance with all standards as described in the “Audit Findings
and Recommendations” section of this report.




                                                3
                     II. Audit Findings and Recommendations

A. Security Management
  The security management component of this audit involved the examination of the policies and
  procedures that are the foundation of BCBST’s overall IT security controls. We evaluated
  BCBST’s ability to develop security policies, manage risk, assign security-related responsibility,
  and monitor the effectiveness of various system-related controls.

  BCBST has implemented a series of formal policies and procedures that comprise its security
  management program. BCBST’s Information Security Committee is responsible for creating,
  reviewing, editing, and disseminating IT security policies. BCBST has also developed a
  thorough risk management methodology, and has procedures to document, track, and mitigate or
  accept identified risks. We also reviewed BCBST’s human resources policies and procedures
  related to hiring, training, transferring, and terminating employees.

  Nothing came to our attention to indicate that BCBST does not have an adequate security
  management program.

B. Access Controls
  Access controls are the policies, procedures, and techniques used to prevent or detect
  unauthorized physical or logical access to sensitive resources.

  We examined the physical access controls at several BCBST facilities and data centers. We also
  examined the logical controls protecting sensitive data on BCBST’s network environment and
  claims processing applications.

  The access controls observed during this audit include, but are not limited to:
  •   Procedures for appropriately granting physical access to facilities and data centers;
  •   Procedures for recertifying access to data centers and restricted areas;
  •   Procedures for removing Windows/network access for terminated employees; and,
  •   Controls to monitor and filter email and Internet activity.

  Nothing came to our attention to indicate that BCBST has not implemented adequate controls
  related to logical or physical access.

C. Network Security
  Network security includes the policies and controls used to prevent or monitor unauthorized
  access, misuse, modification, or denial of a computer network and network-accessible resources.

  BCBST has documented thorough and complete network infrastructure diagrams. BCBST has
  implemented a secure firewall architecture in its network and conducts routine configuration
  reviews of these devices. BCBST’s incident response policies and procedures are



                                                   4
comprehensive, and they utilize software packages for incident correlation. However, BCBST’s
controls to detect rogue devices connected to its network could be improved.

1. Detecting Rogue Network Devices
   BCBST has not implemented technical controls to prevent rogue devices (workstations not
   issued or approved by the company) from connecting to its network.

   NIST SP 800-53 Revision 3 requires that an information system uniquely identify and
   authenticate before establishing a connection. Failure to detect rogue devices increases the
   risk that an insecure device could connect to the network. For example, any employee could
   connect a personal laptop with viruses or a malicious employee could connect a device with
   hacking tools.

   Recommendation 1
   We recommend that BCBST implement controls to prevent rogue devices from connecting to
   its network.

   BlueCross BlueShield of Tennessee Response:
   “The Plan stated that there are numerous compensating controls in place for system
   security that they believe sufficiently address this recommendation. These controls were in
   place prior to the start of this audit. Appendix A provides details of the technical controls
   in place to prevent rogue devices from connecting to BCBST networks.”

   OIG Reply:
   While we acknowledge the benefits of the five controls listed in Appendix A of the BCBST
   response, they are not sufficient to prevent rogue devices from connecting to its network.

   Each of the controls listed in Appendix A of the BCBST response to the draft are addressed
   below:
   1. Disabled Network Ports. Disabling network ports in the public and general access
      areas, while a good control to have in place, does not prevent an authorized employee
      with access to BCBST facilities from connecting a rogue device to the BCBST network
      at an employee workstation.
   2. Intrusion Detection System. A behavioral intrusion detection system could potentially
      flag malicious activity from a rogue device, but does not prevent the rogue device from
      being connected to the network in the first place, and does not prevent malicious attacks
      from executing.
   3. Signature-based Intrusion Prevention System (IPS). As with an intrusion detection
      system, an IPS does nothing to prevent rogue devices from connecting to the network.
      We do agree that this control could potentially stop some malicious attacks, but also note
      that many hacking tools are designed to elude an IPS, and continue to believe that
      additional controls should be implemented to prevent unauthorized devices from
      connecting to the network.


                                               5
      4. Wireless IPS. A wireless IPS can reduce the threat of malicious attacks via wireless
         connections, but does nothing to address rogue devices physically connected to the
         network.
      5. Physical Security. BCBST’s physical access controls reduce the risk of unauthorized
         individuals accessing the company’s facilities, but it does not address the risk of
         employees connecting rogue devices to the network.

      This is a standard control observed at many FEHBP carriers. We continue to recommend
      that BCBST implement the technical controls to prevent rogue devices from connecting to its
      network.

D. Configuration Management
  We evaluated BCBST’s management of the configuration of its claims processing application
  and the server and mainframe environments that support it, and determined that the following
  controls were in place:
  •   Approved server configuration images;
  •   Controls for monitoring privileged user activity on the operating platform; and
  •   Thorough change management procedures for system software.

  The sections below document areas for improvement related to BCBST’s configuration
  management controls.

  1. Baseline Configuration Policy
      BCBST has created baseline configuration images for its server environment. However,
      BCBST has not created baseline configuration documentation for its mainframe security
      software installation.

      NIST SP 800-53 Revision 3 states that an organization must develop, document, and
      maintain a current baseline configuration of the information system. NIST SP 800-53
      Revision 3 also states that an organization must monitor and control changes to the
      configuration settings in accordance with organizational policies and procedures. FISCAM
      requires current configuration information to be routinely monitored for accuracy.
      Monitoring should address the baseline and operational configuration of the hardware,
      software, and firmware that comprise the information system. BCBST cannot effectively
      audit its mainframe security settings without a baseline, as the baseline should be the basis
      for comparison.

      Failure to establish and routinely monitor approved system configuration settings increases
      the risk the system may not meet performance and security requirements defined by the
      organization.

      Recommendation 2
      We recommend that BCBST document approved mainframe security settings.



                                                   6
   BlueCross BlueShield of Tennessee Response:
   “The Plan stated that Mainframe Support and Information Security Operations staff
   determined the appropriate configuration settings to include in a SETR (mainframe
   security settings) baseline configuration. BCBST management approved the baseline for
   the mainframe security settings on February 21, 2013. The details of the changes
   implemented are outlined in Appendix B.”

   OIG Reply:
   The evidence provided by BCBST in response to the draft audit report indicates that BCBST
   has made the appropriate changes to their mainframe configuration settings; no further action
   is required.

   Recommendation 3
   We recommend that BCBST routinely audit mainframe settings to ensure they are in
   compliance with the approved baseline.

   BlueCross BlueShield of Tennessee Response:
   “The Plan stated that staff will implement an automated process, which will compare
   approved baseline settings against current SETR configuration. This implementation is
   scheduled to be completed by April 30, 2013.”

   OIG Reply:
   As part of the audit resolution process, we recommend that BCBST update OPM’s
   Healthcare and Insurance Office (HIO) on its progress to document the approved mainframe
   configuration settings.

2. Mainframe System Configuration
   We reviewed BCBST’s actual mainframe configuration and identified insecure settings. The
   problems we detected were provided to BCBST during the fieldwork phase of the audit and
   related to settings for resource auditing. However, due to the sensitive nature of these
   findings, the specific settings in question will not be included in this report. BCBST
   reviewed our findings and stated that it will conduct testing of the settings during the first
   quarter of 2013 and, if no adverse impact is detected, implement production changes by
   March 31, 2013.

   Recommendation 4
   We recommend that BCBST make the appropriate configuration changes related to the
   specific weaknesses identified during this audit.

   BlueCross BlueShield of Tennessee Response:
   “The Plan stated that Information Security Operations staff reviewed the configuration
   setting in question and determined it would no longer create performance issues within
   our mainframe environment as previously determined. In order to implement the

                                               7
   appropriate configuration changes, testing of this setting will be performed during the first
   quarter of 2013. If no adverse impact is detected, production implementation will occur by
   March 31, 2013.”

   OIG Reply:
   As part of the audit resolution process, we recommend that BCBST update OPM’s HIO on
   its progress to implement the configuration changes addressed in this recommendation.

3. Vulnerability Scanning
   We reviewed BCBST’s vulnerability scanning process and conducted our own independent
   vulnerability scans on BCBST’s information systems, using automated tools. We identified
   several areas for improvement.

   Documented Accepted Vulnerabilities
   BCBST conducts periodic vulnerability scans on its information systems using automated
   tools, and contracts a third party vendor to conduct external scans. Identified vulnerabilities
   are reviewed to determine the necessary steps to remediate the weaknesses. In the event
   there is a business reason a vulnerability cannot be addressed, the weakness is accepted by
   management. However, BCBST does not have a formal process for documenting, tracking,
   or reviewing these known and accepted vulnerabilities.

   NIST SP 800-53 Revision 3 states that an organization identify, document, and approve
   exceptions from mandatory configuration settings for individual components within the
   information system based on explicit operational requirements.

   Failure to track accepted weaknesses decreases an organization’s ability to protect itself and
   increases its risk of being attacked by a malicious user looking to exploit these identified
   vulnerabilities.

   Recommendation 5
   We recommend that BCBST implement a formal process to document, track, and review
   accepted vulnerabilities identified during vulnerability and compliance scanning.

   BlueCross BlueShield of Tennessee Response:
   “The Plan stated that staff will continue with a manual process for vulnerability and patch
   management until a formal process can be implemented. Staff will define a plan to expand
   existing processes to utilize commercial software products for automated support of
   vulnerability and patch management. The details of the plan are scheduled to be finalized
   by June 30, 2013.”

   OIG Reply:
   As part of the audit resolution process, we recommend that BCBST update OPM’s HIO on
   its incremental progress to develop a plan and policy to automate the tracking of
   vulnerabilities. Ultimately, we recommend that BCBST provide evidence of the full

                                                8
implementation of the commercial software product to automate tracking of vulnerabilities
identified during vulnerability and compliance scanning for closure of this recommendation.

System Patching
BCBST has documented patch management policies and procedures. However, the results of
our vulnerability scans indicate that critical patches, service packs, and hot fixes are not
always implemented in a timely manner.

FISCAM states that “software should be scanned and updated frequently to guard against
known vulnerabilities.” NIST SP 800-53 Revision 3 states “The organization (including any
contractor to the organization) promptly installs security-relevant software updates (e.g.,
patches, service packs, and hot fixes). Flaws discovered during security assessments,
continuous monitoring, incident response activities, or information system error handling, are
also addressed expeditiously.”

Failure to promptly install important updates increases the risk that vulnerabilities will not be
remediated and sensitive information could be stolen.

Recommendation 6
We recommend that BCBST improve its procedures and controls to ensure that production
servers are installed with appropriate patches, service packs, and hot fixes on a timely basis.

BlueCross BlueShield of Tennessee Response:
“The Plan stated that upon completion of the implementation plan, staff will have better
assurance that appropriate patches, service packs, and hot fixes are installed on a timely
basis. The changes will include the development of procedures and controls to enhance the
patch management process.”

OIG Reply:
As part of the audit resolution process, we recommend that BCBST update OPM’s HIO on
its incremental progress to develop a plan and policy to automate patch management.
Ultimately, we recommend that BCBST provide evidence of the full implementation of the
commercial software product to ensure that production servers are installed with appropriate
patches, service packs, and hot fixes on a timely basis.

Noncurrent Software
The results of our vulnerability scans indicated that several servers contained noncurrent
software applications that were no longer supported by the vendors and have known security
vulnerabilities.

FISCAM states that “Procedures should ensure that only current software releases are
installed in information systems. Noncurrent software may be vulnerable to malicious code
such as viruses and worms.”


                                              9
      Failure to promptly remove outdated software increases the risk of a successful malicious
      attack on the information system.

      Recommendation 7
      We recommend that BCBST implement a methodology to ensure that only current and
      supported versions of system software are installed on the production servers.

      BlueCross BlueShield of Tennessee Response:
      “The Plan stated that non-current software will be identified during the patch
      management process and tracked in a BCBST approved repository. A risk acceptance
      determination will be reviewed and documented by management to facilitate a disposition
      to the non-current software.”

      OIG Reply:
      As part of the audit resolution process, we recommend that BCBST provide OPM’s HIO
      with evidence of its improved methodology to ensure only current and supported versions of
      system software are installed on the production servers.

E. Contingency Planning
  We reviewed the following elements of BCBST’s contingency planning program to determine
  whether controls were in place to prevent or minimize interruptions to business operations when
  disastrous events occur:
  •   Disaster response plan;
  •   Business continuity plan for data center operations;
  •   Business continuity plans for claims processing operations and claims support;
  •   Disaster recovery plan tests conducted in conjunction with the alternate data center; and,
  •   Emergency response procedures and training.

  We determined that the Plan’s contingency planning documentation contained the critical
  elements suggested by NIST SP 800-34, “Contingency Planning Guide for IT Systems.”
  BCBST has identified and prioritized the systems and resources that are critical to business
  operations, and has developed detailed procedures to recover those systems and resources.
  However, one area for improvement was noted during our review of BCBST’s data center.

  1. Diesel Generator
      The Plan does not have a contract in place to provide diesel fuel for the generators supporting
      the data center in the event of a disaster. Once the fuel stored on-site has been utilized,
      BCBST does not have a guaranteed fuel supply and thus cannot ensure the continued
      operations of its data center in the event of a disaster.

      NIST SP 800-34 states that “A combination UPS/generator system can provide clean, secure
      power for a system as long as fuel is available for the generator. Fuel availability should be
      considered for those who opt for a UPS/generator to support their system environment.”

                                                  10
     The lack of guaranteed fuel delivery in the event of a disaster increases the likelihood that
     BCBST will not be able to maintain data center operations during long term power outages.

     Recommendation 8
     We recommend that BCBST re-evaluate its diesel generator resources and make the
     appropriate changes to ensure its ability to maintain data center operations in the event of a
     long term power loss.

     BlueCross BlueShield of Tennessee Response:
     “The Plan has a diesel storage capacity of 20,000 gallons (2 - 10,000 gallon tanks). The
     generators burn 110 gallons per hour at full load, which equates to 2,640 gallons per 24
     hours per generator. BCBST currently utilizes two generators. Based upon the
     information presented above, BCBST has the capacity to operate both generators at full
     load for approximately four days. In addition, staff has determined that there would be
     sufficient diesel fuel on hand in case of an emergency. However, to solidify this process
     and to address the OPM recommendation, the Plan has obtained a signed commitment
     from a local diesel fuel supplier to provide necessary deliveries in the event of an
     emergency. Appendix C provides the details of this agreement.”

     OIG Reply:
     The evidence provided by BCBST in response to the draft audit report indicates that BCBST
     now maintains a sufficient agreement for the delivery of diesel fuel in the event of a disaster;
     no further action is required.

F. Claims Adjudication
  The following sections detail our review of the applications and business processes supporting
  BCBST’s claims adjudication process.

  1. Application Configuration Management
     We evaluated the policies and procedures governing application development and change
     control of BCBST’s claims processing systems.

     BCBST has implemented policies and procedures related to application configuration
     management, and has also adopted a system development life cycle methodology that IT
     personnel follow during routine software modifications. We observed the following controls
     related to testing and approvals of software modifications:
     •   BCBST has adopted practices that allow modifications to be tracked throughout the
         change process;
     •   Code, unit, system, and quality testing are all conducted in accordance with industry
         standards; and,
     •   BCBST uses a business unit independent from the software developers to move the code
         between the development and production environments to ensure adequate segregation of
         duties.


                                                  11
     Nothing came to our attention to indicate that BCBST has not implemented adequate controls
     related to the application configuration management process.

  2. Claims Processing System
     We evaluated the input, processing, and output controls associated with BCBST’s claims
     processing systems. We determined that BCBST has implemented policies and procedures
     to help ensure that:
     •   Paper claims that are received in the mail room are tracked to ensure timely processing;
     •   Claims are monitored as they are processed through the systems with real time tracking
         of the system’s performance; and,
     •   Claims scheduled for payment are actually paid.

     Nothing came to our attention to indicate that BCBST has not implemented adequate controls
     over the claims processing system.

  3. Debarment
     BCBST has adequate procedures for updating its claims processing systems with debarred
     provider information, and routinely audits its debarment database for accuracy.

     BCBST downloads the OPM OIG debarment list every month and compares it to its own
     provider database. Providers that are a direct match to the debarment list are automatically
     flagged in the provider database. A manual review is conducted for all partial matches to
     ensure that all debarred providers are appropriately terminated.

     Nothing came to our attention to indicate that BCBST has not implemented adequate controls
     over the debarment process.

G. Health Insurance Portability and Accountability Act
  We reviewed BCBST’s efforts to maintain compliance with the security and privacy standards of
  HIPAA.

  BCBST has implemented a series of IT security policies and procedures to adequately address
  the requirements of the HIPAA security rule. BCBST has also developed a series of privacy
  policies and procedures that directly addresses all requirements of the HIPAA privacy rule.
  BCBST reviews its HIPAA privacy and security policies annually and updates them when
  necessary. BCBST’s HIPAA organization is divided into three functional areas that have the
  responsibility of ensuring compliance with HIPAA Privacy and Security policies. Each year, all
  employees must complete compliance training which encompasses HIPAA regulations as well as
  general compliance.

  Nothing came to our attention to indicate that BCBST is not in compliance with the various
  requirements of HIPAA regulations.




                                                 12
                    III. Major Contributors to This Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:
•                  , Deputy Assistant Inspector General for Audits
•                      , Senior Team Leader
•               , Auditor-In-Charge
•                         , IT Auditor
•                    , IT Auditor




                                              13
                              Appendix A
                                                                   ....
                                                                     BlueCross BlueShi eld
                                                                     Associa tion
                                                                     An Association of Independent
                                                                     Blue Cross and Bhw Shield Plnns
                                                                      Federal Employee Program
                                                                      1310 G Street, N.W.
March 11,2013                                                         Washington, D.C. 20005
                                                                      202.942. 1000
                                                                      Fax 202.942. 1125



               Chief
Information Systems Audits Group
Insurance Service Programs
Office of Personnel Management
1900 E Street, N.W., Room 6400
Washington , D. C. 20415

Reference : 	 OPM DRAFT EDP AUDIT REPORT
              BlueCross BlueShield of Tennessee (BCBST)
              Audit Report Number 1A-1 0-15-13-002
              Report Dated January 10, 2013 and Received January 10, 2013



This report is in response to the above-referenced U.S . Office of Personnel
Management (OPM) Draft Audit Report covering the Federal Employees Health
Benefits Program (FEHBP) Audit of Information Systems General and Application
Controls for the Plan 's interface with the FEP claims processing system, access, and
security controls. Our comments regarding the recommendations in this report are as
follows:

A . NETWORK SECURITY

1. Network Port Scanning
   Recommendation 1

   The OIG Auditors recommend that BC BST implement controls to prevent rogue
   devices from connecting to its network.

   Response to Recommendation 1

   The Plan stated that there are numerous compensating controls in place for
   system security that they believe sufficiently address this recommendati on. These
   controls were in p lace prior to the start of this audit. Appendix A provides details of
   the technical controls in place to prevent rogue devices from connecting to BCBST
   networks.
              Chief
              3
Page 2


B. CONFIGURATION MANAGEMENT

1. 	 Basel ine Configuration Policy

   Recommendation 2

   The O IG Auditors recommend that BCBST document approved mainframe security
   settings.

   Response to Recommendation 2

   The Plan stated that Mainframe Support and Information Security Operations staff
   determined the appropriate configuration settings to include in a SETR (mainframe
   security settings) baseline configuration . BCBST management approved the
   baseline fo r the mainframe security settings on February 21 , 2013. The details of
   the changes implemented are outlined in Appendix B.

   Recommendation 3

   The O IG Auditors recommend that BCBST routinely audit mainframe settings to
   ensure they are in compliance with the approved baseline .

   Response to Recommendation 3

   The Plan stated that staff w ill implement an automated process , which will
   compare approved baseline settings against current SETR configuration. This
   implementation is scheduled to be completed by April 30, 2013 .

2. 	 Mainframe System Configuration

   Recommendation 4

   The OIG Auditors recommend that BCBST make the appropriate configuration
   changes related to the specific weaknesses identified during this audit.

   Response to Recommendation 4

   The Plan stated that Information Security Operations staff reviewed the
   configuration setting in question and determined it would no longer create
   performance issues within our mainframe environment as previously determined.
   In order to implement the appropriate configuration changes , testing of this setting
   will be performed during the first quarter of 2013. If no adverse impact is detected ,
   production implementation will occur by March 31 , 2013.
              Chief
             13
Page 3


3. Vulnerability Scanning

   Recommendation 5

  The OIG Auditors recommend BCBST implement a formal process to document,
  track. and review accepted vulnerabilities identified during vulnerability and
  compliance scanning.

   Response to Recommendation 5

   The Plan stated that staff will continue with a manual process for vulnerability and
   patch management until a formal process can be implemented . Staff will define a
   plan to expand existing processes to utilize commercial software products for
   automated support of vulnerability and patch management. The details of the plan
   are scheduled to be finalized by June 30, 2013.

   Recommendation 6

   The OIG Auditors recommend BCBST implement proper procedures and controls
   to ensure that production servers are installed with appropriate patches , service
   packs, and hot fixes on a timely basis.

   Response to Recomm endation 6

   The Plan stated that upon completion of the implementation plan , staff will have
   better assurance that appropriate patches, service packs , and hot fixes are
   installed on a timely basis. The changes will include the development of
   procedures and controls to enhance the patch management process.

   Recommendation 7

   The OIG Auditors recommend BCBST implement a methodology to ensure that
   only current and supported versions of system software are installed on the
   production servers.

   Response to Recommendation 7

   The Plan stated that non-current software will be identified during the patch
   management process and tracked in a BCBST approved repository. A risk
   acceptance determination will be reviewed and documented by management to
   faci litate a disposition to the non-current software.
                 Chief
                13
Page 4


C. CONTINGENCY PLANNING

1. Diesel Generator

      Recommendation 8

      T he OIG Auditors recommend that BCBST re-evaluate its diesel generator
      resources and make the appropriate changes to ensure its abil ity to maintain data
      center operations in the event of a lo ng term power loss.

      Response to Recommendation 8

      The Plan has a diesel storage capacity of 20,000 gallons (2 - 10,000 gallon tanks).
      The generators burn 110 gallons per hour at full load , which eq uates to 2,640
      gallons per 24 hours per generator. BCBST currently utilizes two generators.
      Based upon the information presented above, BCBST has the capacity to operate
      both generators at full load for approximately four days. In addition, staff has
      determined that there would be sufficient diesel fuel on hand in case of an
      emergency. However, to solidify this process and to address the OPM
      recommendation , the Plan has obtained a signed commitment from a local diesel
      fue l s upplier to provide necessary deliveries in the event of an emergency.
      Append ix C provides the details of this agreement.

We appreciate the opportunity to provide our response to this Draft Audit Report and
request that our comments be included in their entirety as an amendment to the Final
Aud it Report.

Sincerely,




-

cc:                           I


                                  T
                                   BCBST
